Inspections Report I-96-07
DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS REPORT
INSPECTION OF THE DEPARTMENT OF JUSTICE
DRUG-FREE WORKPLACE PROGRAM
March 1996
Report Number I-96-07
TABLE OF CONTENTS
EXECUTIVE DIGEST
INTRODUCTION
RESULTS OF THE INSPECTION
I. Testing Practices
A. Applicant Testing
B. Presidential Appointee
Testing
C. Random Testing
D. Probationary Testing
E. Voluntary Testing
F. Follow-up Testing
G. Reasonable Suspicion Testing
H. Accident or Unsafe
Practice Testing
Recommendations
II. DFW Program Implementation
A. Deferrals from Random Testing
B. Disclosure of DFW Test
Results
C. Security of DFW Files
Recommendations
III. Departmental DFW Oversight
A. DOJ DFW Policies and
Procedures
B. DFW Program Costs
C. DFW
Supervisory Training and Employee Education
D. Components' DFW Initiatives
Recommendations
IV. Inspection Summary
APPENDIX I - Scope and Methodology
APPENDIX II - DOJ's Drug-Free Contract Prices for FY 1993 and First Half of FY 1994 -
NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX III - Abbreviations
APPENDIX IV - Bureau of Prison's Response to the Draft Report - NOT INCLUDED IN THIS
HYPERTEXT VERSION.
APPENDIX V - Drug Enforcement Administration's Response to the Draft Report - NOT
INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX VI - Federal Bureau of Investigation's Response to the Draft Report - NOT
INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX VII - Immigration and Naturalization Service's Response to the Draft Report -
NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX VIII - United States Marshals Service's Response to the Draft Report - NOT
INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX IX - Justice Management Division's Response to the Draft Report - NOT INCLUDED
IN THIS HYPERTEXT VERSION.
APPENDIX X - Office of the Inspector General's
Analysis of Managements' Responses
EXECUTIVE DIGEST
Executive Order 12564 (Order) requires each executive agency to establish drug-testing
programs in support of a drug-free Federal workplace. On September 25, 1987, the Attorney
General issued the Department of Justice (DOJ/Department) Drug-Free Workplace (DFW) Plan
to implement the Order.
The DOJ plan establishes policies and procedures for conducting the program. It
delegates responsibilities to component heads for implementing a drug-free workplace and
for establishing requirements for testing applicants and employees.
The DOJ has six DFW programs administered by the Bureau of Prisons (BOP), Drug
Enforcement Administration (DEA), Federal Bureau of Investigation (FBI), Immigration and
Naturalization Service (INS), United States Marshals Service (USMS), and the Justice
Management Division (JMD). JMD administers the DFW program for all of the Department's
Offices, Boards, and Divisions.
During the inspection, we assessed the Department's DFW program implementation and
compared the components' DFW operations and costs. Although the Department issued a DFW
plan in 1987, it has not established a procedure to ensure the components' compliance with
the DFW plan or to encourage the components' sharing of program costs and information.
Overall, the BOP and FBI had the most active programs in the Department, using most of the
available drug testing categories and providing employee DFW education.
We found that the components deviated from required testing procedures contained in the
DOJ plan and their DFW plans. DEA did not conduct applicant testing; BOP, FBI, and INS'
Border Patrol tested applicants who had not been offered employment; INS did not test
applicants receiving appointments of 90 days or less; the FBI, USMS, and JMD did not test
all Presidential appointees; the USMS did not conduct follow-up tests of employees who
underwent counseling or rehabilitation for illegal drug use; and JMD's practices for
selecting and testing employees did not adhere to its random testing policies.
Furthermore, JMD had not implemented a Federal court ruling allowing it to include in its
random testing pool certain categories of Federal prosecutors and other employees.
There were other respects in which the components did not implement their programs
according to the DOJ plan, their plans,and other policy guidance. Specifically, we found
that DEA did not reschedule employees who were deferred from random drug tests within 60
days of the scheduled test, and did not always document the reasons employees did not take
the tests; INS, USMS, and JMD did not reschedule employees who did not take random drug
tests within 60 days; the FBI's Medical Review Officer did not directly receive drug test
results from the contract laboratory as required; and INS did not secure its DFW files at
all times.
Because of the decentralization of the DOJ DFW program, we found that overall DOJ
program oversight could have detected problems with program guidance and compliance with
testing requirements. For example, oversight could have detected that some newly appointed
Presidential appointees had not been tested for drugs. Also, oversight could have
addressed the components' needs to seek DFW exemptions and to request approval of changes
in their DFW plans. JMD has not assigned responsibility for oversight activities.
Moreover, JMD should foster the sharing of program and cost information among the
components to improve the efficiency and economy of program operations.
#####